        Physical , Occupational , and Speech Therapy
           for Medicare Nursing Home Patients
Medical Necessity and Qualiy of Care Based on Treatment Diagnosis




                                                             August 2001

                                                        OEI- 09-99- 00563

                                              Offce ofInspector General
                                      Offce of Evaluation and Inspections
                                                               Region IX
            DEPARTMENT OF HEALTH &. HUMAN SERVICES                                       Office of Inspector General




"IIQ

           AUG     3 2001
                                                                                         Memorandum
   Date

   From



   Subject OIG Final Report: " Physical , Occupational and Speech Therapy for Medicare Nursing
          Home Patients: Medical Necessity and Quality of Car Based on Treatment Diagnosis
          OEI-09- 99- 00563

          Jacquelyn Y. Whte
          Acting Director,Office of Communcations
            and Operations Support
          Centers for Medicare and Medicaid Services


          Attached is our final report concernng the relationship between treatment diagnosis and the
          medical necessity and quality of Par B therapy services for Medicare nursing home patients.
          This information was requested by CMS staff durng our discussions about our reports on
          medical necessity, cost , and document of these therapy services.

          We found indications that the medical necessity oftherapy vared by treatment diagnosis.
          Although we were not able to identify specific diagnoses that were associated consistently
          with higher rates of medically unecessar therapy or poor quality of care , we believe that
          examining the relationships between treatment diagnosis and therapy in skilled nursing
          facilities is a promising approach. This data could be useful in guiding medical review and
          ensurng that all patients receive therapy that meets acceptable standards of care.

          If you have any questions , please call me or have your staff contact Stuar Wright at
          (410) 786- 3144.

          Attachment
                          EXECUTIVE SUMMARY


  PURPOSE
           To examine the relationship between treatment diagnosis and the medical necessity and
           quality of Medicare Par B physical , occupational , and speech therapy for skilled nursing
           facility patients.


  BACKGROUND
           Medicare coverage guidelines state that therapy must be reasonable , necessar, specific
           and effective treatment for the patient' s condition. Therapy must be ordered by a
           physician or other qualified health care practitioner, require the skills of a qualified
           therapist , and be dictated by a wrtten treatment plan. The treatment plan must include
           functional goals and a reasonable estimate of when patients will attain the goals.

           The  Medicare, Medicaid, and SCHIP Balanced Budget Refinement Act of          1999 requires
           the Centers for Medicare and Medicaid Services (formerly called known as the Health
           Care Financing Admnistration) to (I) recommend a process to assure the appropriate
           utilization of Medicare outpatient therapy; (2) establish an alternative payment policy
           based on diagnostic categories , fuctional status , and prior use of therapy; and
           (3) conduct focused medical reviews oftherapy services , with emphasis on claims for
           services provided to residents of skilled nursing facilities. To meet the requirement of the
           law , the Centers for Medicare and Medicaid Services (CMS) staff requested our
           assistance.

           Our national random sample consisted of 320 Medicare patients. We conducted on-site
          medical and financial reviews at 132 nursing homes , rehabilitation agencies , and hospital
          outpatient deparents nationwide. Several teams of physical and occupational therapists
          and speech- language pathologists reviewed medical records for the sampled patients.




 FINDINGS
 By diagnosis ,the proportion of therapy that was not medically necessary ranged
 from 4 percent to 26 percent

          We found an overall difference in the receipt of medically unecessar therapy
          diagnosis. However , because of the relatively small number of episodes associated with
          each diagnosis , we were not able to state definitively which diagnoses would be more



Treatment Diagnosis and SNF Therapy                                                       OEI- 09- 99-00563
           likely to involve rnedically unecessar therapy. Among sampled patients , the proportion
           of medically unecessar units , when grouped in the 10 diagnostic categories , ranged
           from approximately 4 percent for ortopedic and back disorder patients to approximately
           25 percent for stoke patients.


  CONCLUSION
           In our sample , we found indications that the rnedical necessity of therapy vared by
           treatment diagnosis. Although we were not able to identify specific diagnoses that were
           associated consistently with higher rates of medically unecessar therapy or poor quality
           of care , we believe that examinig the relationships between treatment diagnosis and
           therapy in skilled nursing facilities is a prornsing approach. Targeting those diagnoses
           that are most vulnerable may help to guide medical review and ensure that all patients
           receive therapy that meets acceptable standards of care.


 AGENCY RESPONSE

           We received comments on the three draft reports on therapy services from the CMS.
           Although this report does not contain any recommendations , CMS concured with the
           recommendations offered in the two companon reports. The full text of the Agency
           comments appears in appendix D.




Treatment Diagnosis and SNF Therapy                                                   OEI- 09- 99-00563
                          . . . .. .. ..                            .... .....
                                          . ... ... .... .............
                                       . ..                                               .. .. . . .. . . .
                                                                              ...... ... ........ .... .... .............................
                                                                             ..                                                                                                            . . . . . . . . . . . . . . . . .. . ..
                                                                                                                                       .... ... ... .... .... ...................... .... .... ..... ... ...................... ... .... ...............
                                                                                                                                                                                                                                                       ........  .. ... .....
                                                                                                                                                                                                                                                              .. .          ......




                                      TABLE OF CONTENTS
                                                                                                                                                                                                                                                                  PAGE

  EXECUTIVE SUMMARY. 





  INTRODUCTION.
                                                                                                                                                                                                                                                                            .. 4

  FINDINGS.
                                                                                                                                                                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


                Diagnosis and medical necessity. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


                Diagnosis and appropriate therapy. . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. .. .. .
. . . . . . 12


  CONCLUSION.
                                                                                                                                                                           . . . . . . . . . . . . . . . . . . . . . . . . . . 14


 APPENDICES.




                A: Diagnostic Categories. . . . .                                                                                                                                                                                               . . . . . . . . 15


                B: Number of Therapy Episodes by Diagnosis. . . . . 


                C: Confidence Intervals for Selected                                                                 Statistics. .                             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


                D: Agency Comments. . . . . . . . .                                                                                                                                                                                                . . . . . . . 27





Treatment Diagnosis and SNF Therapy                                                                                                                                                                                                           OEI-09- 99-00563
                                      INTRODUCTION


  PURPOSE
           To examine the relationship between treatment diagnosis and the medical necessity and
           quality of Medicare Par B physical , occupational , and speech' therapy for skilled nursing
           facility patients.


 BACKGROUND
 Medicare Coverage Guidelines for Part B Physical , Occupational , and Speech
 Therapy

          Medicare guidelines state that all therapy must be reasonable , necessar, specific , and
          effective treatment for the patient's condition. Policies developed by the Centers for
          Medicare and Medicaid Services (formerly known as the Health Care Financing
          Adminstration or HCF A), the federal agency that administers the Medicare program
          require that therapy (I) is ordered by a physician or other qualified health care
          practitioner , (2) requires the skills of a qualified therapist rather than nonskilled nursing
          home staff, (3) is provided either by or under the direct supervision of a certified therapist
          (as defined in State law), and (4) is dictated by a written treatment plan.

          Medicare coverage also requires that the therapy meet the following conditions:

               the wrtten treatment plan includes specific and measurable treatment goals related to
               the patient's condition along with a reasonable time estirnate of when those goals will
               be achieved;
               the treatment plan describes the specific therapeutic interventions that will be used to
               restore the patient s levels of fuction that has been lost or reduced by illness or
               ilJUry;
               the amount , frequency, and duration of therapy must be reasonable and necessar for
               the patient's condition;

               therapy must be provided with the expectation , based on the assessment made by the

               therapist , physician , or non-physician staff member (nurse practitioner, physician

               assistant , or clincal nurse specialist) of the patient's restoration potential , that the



           Thoughout this report , we will refer to speech- language pathology as speech therapy.

           Health Care Financing Administration Skiled Nursing Facility Manual Sections 214 , 230
 230. 3(c), and 271.

Treatment Diagnosis and SNF Therapy                                                           OEI- 09- 99-00563
                 patient' s condition will improve substantially in a reasonable and generally
                 predictable period of time , or the therapy must be necessar for the establishment of a
                 safe and effective maintenance program. Therapy only will be covered until the
                 physician and/or therapist concludes that the patient is not going to improve; and
                 the patient is seen by the physician or non-physician staff member at least every
                 30 days.

 The Therapy Caps
           Section 4541(c) of the     Balanced Budget Act of   1997 changed skilled nursing facility
           (SNF) reimbursement for physical , occupational , and speech therapy by setting an anual
           cap for Medicare Par B patients. Effective Januar I , 1999 , occupational therapy was
           limited to $1 500 anually, while physical and speech therapy shared the same $1 500
           anual cap.


           Section 221 of the    Medicare, Medicaid, and SCHIfF Balanced Budget Refinement Act

           of   1999 , passed in November 1999 , suspended the cap for 2 years effective

          Januar 1 , 2000. Section 22 I (c)(2) of the legislation requires the Centers for Medicare

          and Medicaid Services (CMS) to (I) recommend a mechansrn to assure the appropriate

          utilization of Medicare outpatient therapy and (2) establish an alternative payment policy

          based on diagnostic categories , fuctional status , and prior use oftherapy.


 Focused Medical Review

          The law also mandated th t the Secretar conduct focused rnedical reviews of Par B
          therapy clairns , with an emphasis on SNF claims in calendar years 2000 and 2001. In
          October 2000 , CMS launched a Program Safeguard Contract for therapy to (I) analyze
          curent national and local medical review policies; (2) conduct extensive literatue
          review , analysis , and abstraction; (3) interview fiscal intermediares and therapy
          providers; and (4) develop medical review protocol for the fiscal intermediares.

          Section 421 of the  Medicare, Medicaid, and SCHIP Benefits Improvement and Protection
          Act of 2000 passed in November 2000 , extended the moratorium on the therapy caps for
          another year , through calendar year 2002. The law also extended the requirement for
          focused review of SNF therapy claims until year 2003.




            State Children s Health Insurance Program.

            The Social Security Act Section 1833(g) as amended.
Treatment Diagnosis and SNF Therapy                                                          OEI-9- 99-00563
  Recent Offce of Inspector General Work on Patient Diagnosis and SNF Therapy
           The Office of Inspector General released a memorandum report in October 1999
           concerng physical , occupational , and speech therapy provided to Medicare patients in
           skilled nursing facilities. This report examined estirnated physical , occupational , and
           speech therapy reimbursement per SNF stay durng calendar year 1998. The report also
           examed the relationship between therapy reimbursement and patient diagnosis before
           the transition from cost-based reimbursement to the Par B fee schedule. Members ofthe
           therapy communty had expressed concerns that SNF patients who are hospitalized for
           strokes or hip fractues may require signficantly more therapy than others. According to
           the report , preliminar analysis indicated that patients with these diagnoses were slightly
           more likely to receive at least $1500 in occupational therapy or combined physical and
           speech therapy in calendar year 1998.



  METHODOLOGY
 Selection of Sampled SNF Part B Therapy Patients
           From the Medicare Common Working File , we extracted all Par B physical
           occupational , and speech therapy clairns processed by Medicare fiscal intermediares ' for
           services provided to nursing home patients. We identified beneficiares as nursing home
           patients if(l) the nursing   home submitted the therapy claims or (2) beneficiares were
           identified as residents in the CMS minimum data set. These claims were submitted to
           fiscal intermediares by nursing homes , rehabilitation agencies , and hospital outpatient
           deparents for therapy initiated between Januar 1 and June 30 1999. We limited the
           extract to the continental United States.

          We used a multi-stage stratified cluster sampling approach to select 320 nursing home
          patients who received Par B therapy during the first 6 months of calendar year 1999.
          We reviewed 318 of320 medical records. Two records were missing because the nursing
          horne closed before our review , and the corporate owner could not retreve the records
          from storage.




          Fiscal inteTIediaries are the insurance companies that pay Medicare claims for hospitals
 skilled nursing facilities , and home health agencies.

            6por more details on sample selection , refer to the Methodology section of our report Physical

 $1500 Caps     (OEI- 09-99-  00560), July 2001.
 Occupational, and Speech Therapy for Nursing Home Patients: Medical Necessity and Cost under the


Treatment Diagnosis and SNF Therapy                                                             OEI-09-99- 00563
  On-Site Medical Review

           Several teams of certified and/or licensed physical and occupational therapists and
           speech- language pathologists conducted on-site review of the medical records for the
           national random sample. Reviewers assessed the medical necessity, underutilization
           overutilization, and quality of care of therapy provided in calendar year 1999.

  Claims Analysis


           We analyzed the Par B physical , occupational , and speech therapy claims subrnitted for
           the sampled patients. For each patient , we extracted clais that were submitted for
           therapy initiated between Januar I and June 30 , 1999.

           We analyzed the claims by individual therapy units and clusters of therapy unts.
           individual "unt" of physical , occupational , or speech therapy constitutes one 15-minute
           session oftherapy. Clusters of therapy unts were grouped into " episodes oftherapy. ,,7
           An episode of therapy consists of a series of continuous therapy unts tied to a physician
           order, specific diagnosis , treatment plan , and set of patient goals. An episode of therapy
           may last a few days or a few months.

 Medical Necessity and Quality of Care

           Using strctued review instrents ,     medical reviewers determined the medical necessity
           and quality of therapy care received by SNF patients. Reviewers examed medical
           records and treatment logs to determine which ofthe therapy unts provided to patients
           were either medically necessar or unecessar. Within each episode oftherapy, medical
           reviewers assessed the quality of care received by patients according to four criteria.
          Reviewers determined whether or not:

               therapy was provided when needed;

               therapy was provided with the appropriate frequency and duration;

               therapy was adminstered by providers with the appropriate skill level; and

               the patient reached treatment goals , defined as what the therapist or physician expects

               the patient to achieve as a result oftherapy.


 Treatment Diagnosis


          Medical reviewers examned patients ' records to identify treatment diagnoses for each
          episode of therapy. Reviewers used information contained in physicians ' therapy orders


          7 Also
                   referred to as " episodes of care.

        Health Care Financing Administration Medicare Intermediary Guidelines Section A3 3904C5
 under Medical Review of Part B Intermediary Outpatient Bils.
Treatment Diagnosis and SNF Therapy                                                        OEI-09- 99-00563
                                                              ""




           notes wrtten by physicians and nurses , and therapy evaluations to determine the primar
           diagnosis indicating the need for physical , occupational , or speech therapy. Patients who
           received therapy durng more than one episode of care may have had a different primar
           treatment diagnosis for each episode.

           We grouped priar treatment diagnoses into I of 11 diagnostic categories. 9 Among
           others , the categories include " stroke neurologic disorders," and "hip fractues. " An
           eleventh category includes all other diagnoses that are not included in I ofthe 10 major
           categories. These categories were created to differentiate patients according to expected
          rehabilitation requirements. We conducted all analyses involving patient diagnosis using
          this classification system.

          This report is one in a series ofreports on physical , occupational , and speech therapy for

          Medicare SNF patients. The first report Physical, Occupational, and Speech Therapy for

          Medicare Nursing Home Patients: Medical Necessity and Cost under the $1500 Therapy

          Caps      (OEI- 09-99- 00560), focuses on the medical necessity and cost of Medicare Par B

          therapy while the $1500 anual caps were in place. A cornpanon report Physical

          Occupational, and Speech Therapy for Nursing Home Patients: Medical Record

          Documentation and Biling        (OEI- 09-99- 00562), details rnedical record documentation

          and Par B billing practices identified in our sample.


          Our review was conducted in accordance with the
                                                                          Quality Standards for Inspections
          issued by the President' s               Council on Integrty and Effciency.




          See appendix A for a detailed description of the diagnostic classification system. This system
 was developed by the Rand research team that developed the Functional Related Groups classification
 system. See Joan L. Buchanan , 1. David Rumpel & Helen Hoenig,      Outpatient Institutional
 Rehabilitation Services 1987- 1990: Who provides them and how do they compare?        Supported by CMS.

Treatment Diagnosis and SNF Therapy                                                                 OEI-09- 99-00563
                                                                          ""




                                            FINDINGS€
  By diagnosis ,the proportion of therapy that was not
  medically necessary ranged from 4 percent to 26 percent
           Primar treatment diagnoses were identified and grouped according rnajor diagnostic
           categories. Durng on-site SNF visits , medical reviewers identified patients ' priar
           treatment diagnoses lO for each episode of therapy. II We then classified these treatment
           diagnoses into II diagnostic categories.



           Among others , the diagnostic categories include " stroke neurological disorders " and
            hip fractues. " An eleventh category includes all other diagnoses that are not included in
           any of the 10 major categories. Sampled patients who were in this category had
           diagnoses such as general debility, decreased fuctional mobility, and muscle wasting.

          Among sampled patients , approximately 52 percent of their therapy episodes fell into the
           neurological disorders " category. 13 This category includes such       priar
                                                                                      treatment
          diagnoses as dysphagia , abnormality of gait, and Parkinson s Disease. With the
          exception of the "musculoskeletal" (11.4 percent) and the " other" (13. 6 percent)
          categories , each of the remainig categories accounted for less than 10 percent of the
          therapy episodes in our sample. The categories of "back" and " cardiovascular" were the
          least common , with only 2.4 percent each.

          In approximately 40 percent ofthe therapy episodes ,        a secondar diagnosis contrbuted to
          the patients ' need for therapy. For example , some patients received therapy related to a
          stroke or a musculoskeletal or cardiovascular disorder even when this condition was not
          their primar treatment diagnosis. Whle stroke was the primar treatment diagnosis in
          approximately 7. 1 percent of episodes , patients received some therapy related to a stroke
          approxirnately 11.5 percent of the time. Similarly, a musculoskeletal disorder contrbuted



          Diagnosis or treatment diagnosis refers to patients ' primary treatment diagnosis for a particular
 episode of therapy.

           An episode of therapy or episode of care consists of a series of continuous therapy units tied to
 a physician order , specific diagnosis , treatment plan , and set of patient goals.

           See appendix A for a detailed description of the diagnostic classification system. We excluded
 diagnoses that comprised less than 2 percent of all therapy episodes fTom our analyses. These diagnoses
 include spinal cord injury (1.7 percent), amputation and deformities (0 percent), and rehabilitation
 (0 percent).

          13
               Appendix B lists the number of therapy episodes for sampled patients by diagnosis.
Treatment Diagnosis and SNF Therapy                                                             OEI-09- 99-00563
         to patients ' need for therapy in approxirnately 21. 9 percent of all episodes although it was
         patients ' primar diagnosis only 11.4 percent of the time.

         We identified a relationship between diagnosis and medical necessity; " however, because
         of the relatively small number of episodes associated with each diagnosis , we were not
         able to state defitively which diagnoses would be more likely to involve medically
         unecessar therapy. As noted in the following char , the proportion of medically
         unecessar unts , when grouped in the 10 diagnostic categories , ranged from
         approximately 3. 9 percent for ortopedic 5 and back disorder patients to approximately
         24.4 percent for stoke patients.


                                 Medical Necessity Varied by Diagnosis




                       :: 20




                       1! 10




                                      Neurologic Back   Disorders Musculoskeletal Other
                               Stroke Hip Fractures Cardiovascular Orthopedic
                                                 Diagnostic CategorlBS

                                             Source: Offce of Evaluation and Inpections , 2001




                                    test for differences among diagnostic categories in the percent of
          ''is is based on a chi-square
units medically unecessar. The difference  was significant at the 95 percent confidence level
(p-value = 0. 027).
         15 An
                 orthopedic diagnosis includes bone fractues (other than hip), joint replacement , and
dislocations.

Treatment Diagnosis and SNF Therapy                                                              OEI-09- 99-00563
 Stroke patients frequently received unnecessary therapy

          Stroke patients often received therapy that was not medically necessar. Medical
          reviewers found that stroke patients received medically unecessar therapy for several
          reasons:

              Sorne stroke patients simply received too much therapy. They received therapy more
              frequently than was required in the same day or in the course of a week. One patient
              repeatedly received more than four physical therapy unts each day. According to
              medical reviewers , this was unecessar and excessive.

              In other situations , stroke patients did not require the skilled care that therapists
              provided. For example , following an initial evaluation one patient received an
              additional 32 units of therapy from a speech therapist over the course of2 weeks.
              Medical reviewers indicated that ths patient needed care only from the SNF staff.

              Therapists often failed to adjust stroke patients ' treatment plans even when they no
              longer benefitted from additional therapy. For example , one stroke patient received
              2 weeks of medically necessar physical therapy. He continued to receive therapy
              according to his original plan of care for another 4 months , despite the fact that he
              received no objective re-evaluations and showed no significant progress durng this
              time.

Approximately 26 percent of therapy units biled for patients in the catchall
diagnostic category labeled " other" were medically unnecessary

         According to medical reviewers , patients in the " other" category received unecessar
         therapy for reasons sirnilar to stroke patients:

              Some patients received more therapy than they needed. Two patients received too
              much physical therapy in a given day, whereas another patient received too much
              physical therapy for her paricular treatment goals. One patient with decreased
              fuctional ability received 64 unts of unecessary physical therapy, almost twice the
              number of necessar unts that this patient received.

              Other patients received therapy that was inappropriate for their treatment goals or
              progress rate. One patient received occupational therapy that was not sufficiently
              planed. As a result , this patient was not able to progress towards stated treatment
              goals.




Treatment Diagnosis and SNF Therapy                                                       OEI- 09-99- 00563
Across all diagnoses, the majority of patients benefitted from
appropriate therapy without exceeding the caps
Regardless of diagnosis , the majority of patients reached their goals

         Medicare coverage guidelines require that therapy is provided with the expectation that
         the patient' s condition will improve substantially in a reasonable period of time. To meet
         ths requirement , therapists , physicians , or non- physician staff members (nurse
         practitioners , physician assistants , or clincal nurse specialists) conduct an assessment to
         determne what improvements can be expected as a result of therapy. Based on the
         assessment, a written treatment plan is developed which is incorporated in the patient's
         record. This plan must include specific and measurable treatment goals related to the
         patient's condition and an estirnate of when the goals will be achieved.

         During SNF visits , medical reviewers examed treatment plans for each episode of
          therapy to determne whether or not patients reached their treatment goals. Reviewers
         found that the majority of patients achieved their treatment goals by the end oftheir
         therapy episodes. In our sample, the proportion of episodes in which patients reached
         treatment goals ranged from approximately 90 percent for ortopedic patients to
         approximately 57 percent for stroke patients.

The duration and frequency of therapy was appropriate for most patients
regardless of diagnosis

         According to medical reviewers, patients received therapy for the length of time that was
         appropriate for their medical condition and treatment goals. On average , patients
         required no additional therapy by the end of approximately 82 percent of therapy
         episodes. The proportion of episodes in which patients required no additional therapy
         ranged from 99 percent for back patients to 75 percent for orthopedic patients.

         Although patients received enough therapy in most episodes , medical reviewers identified
         some episodes in which patients did not. In some cases , it was a rnatter of frequency
         rather than duration. For example , one patient received occupational therapy three times
         a week although , according to medical reviewers, he should have received therapy five
         times a week (with a 2 week rest) until all treatment goals were met.




         16
          Among episodes in which medical reviewers were able to determine whether or not patients
reached their goals.
         17
          Among episodes in which medical reviewers were able to determine whether or not patients
required additional therapy.

Treatment Diagnosis and SNF Therapy                                                     OEI- 09- 99-00563
         In other episodes , therapists prematuely discontinued therapy. They terminated therapy,
         someties without providing a clear reason in patient records , even though it continued
         to benefit patients ' fuctional performance.

Few patients of any diagnosis exceeded the $1500 therapy caps
         Regardless of diagnosis , patients rarely reached or exceeded the therapy caps durng the

         fist 6 months of 1999. As noted                Physical, Occupational, and Speech

                                               in the report

         Therapy for Nursing Home Patients: Medical Necessity and Cost under the $1500

         Therapy Caps   (OEI- 09-99- 00560), approximately 0. 5 percent of all patients reached or

         exceeded the $1500 occupational therapy cap, and approximately 1. 7 percent of all

         patients reached or exceeded the shared $1500 physical and speech therapy cap.

         Similarly, with individual diagnostic categories , relatively few patients reached or

         exceeded either ofthe therapy caps. As noted in the following table , with each

         diagnostic category fewer than 6 percent of patients reached the occupational therapy cap

         and fewer than 7 percent of patients reached the shared physical and speech therapy cap.


                       FEW PATIENTS EXCEEDED THE THERAPY CAPS

                                             Percent Who Reached or Exceeded
                                                     the Therapy Cap
                             Diagnosis
                                                                     Shared Physical
                                               Occupational
                                                                        and Speech

                       Stroke
                       Neurologic                                             1.6

                       Hip Fracture
                    1.5

                       Back
                       Cardiovascular
                       Musculoskeletal
                       Orthopedic
                       Other                                                  5.4
                                         Source: Offce of Evaluation and Inspections , 200 1




          Due to the small number of individuals in our sample who reached the therapy caps , we were
not able to perfonn the chi-square test to identify differences in the likelihood of reaching the cap by
diagnosis. Based on the confidence intervals in appendix C , it does not appear that these differences are
statistically significant.

Treatment Diagnosis and SNF Therapy                                                            OEI- 09- 99-00563
                                      CONCLUSION€

          Although we found evidence that medical necessity vared by diagnosis , we were not able
          to identify specific diagnoses that were associated consistently with higher rates of
          medically unecessar therapy or poor quality of therapy care. Targeting specific
          diagnoses for focused medical review could be a cost-effective way of identifyng therapy
          that is not medically necessar or does not meet acceptable standards of care. By
          isolatig those diagnoses that are most vulnerable , CMS could ensure that medical review
          resources are reserved for situations that are most likely to yield results.


AGENCY RESPONSE

         We received comments on the three draft reports on therapy services from CMS.
         Although ths report does not contai any recommendations , the Agency concurred with
         the recommendations offered in the two companon reports. The full text of the Agency
         comments appears in appendix D.




Treatment Diagnosis and SNF Therapy                                                  OEI-09-99-00563
                                                                                  APPENDIX A

                                      Dia gnostic Categories

Stroke
  342              Hemiplegia
  430              Subarachnoid hemorrhage
  431                     Intracerebral hemorrhage
  432                     Intracranial hemorrhage
  433              Occlusion and stenosis of precerebral areries
  434             Occlusion of cerebral arteries
  436             Acute , but ill- defmed , cerebrovascular disease
  437              Other and il- defined cerebrovascular disease
  438             Late effects of cerebrovascular disease
  784.            Aphasia


 (A)
Spinal Cord Injury

 806         Fractures and injury without fracture
                  Fractue of vertebral column with spinal cord injur
  907.2 Late effect of spinal cord injur
  952             Spinal cord injur without evidence of spinal bone       injur
 (B)              Nontraumatic and other spinal cord damage

  192. 192.3 Malignant neoplasm of spinal cord and meninges

  225. 225.4 Benign neoplasm of spinal cord and meninges

  324.       Intraspinal abscess

  335        Anterior horn cell disease

  336        Other diseases of spinal cord

  344        Other paralytic syndromes

  741             Spina bifida



 (A)
Neurologic Disorders
 800              Fractures and concussions

  801
  803
                  Fractue of vault of skull
                  Fractue of base of skull

  804
  850
                  Other and unqualified skull fractures
          Multiple fractues involving skull or face

  851     Concussion
          Cerebral laceration and contusion

  853
  852 Subarachnoid , subdural or extradural hemorrhage following injur
  854     Other and unspecified Intracranial hemorrhage following injur
                  Intracranial injury of other and unspecified natue
  905.            Late effect of fractue of skull and face bones
  907.            Late effect of Intracranial injur without skull     fractue




           Table modified from Debra A. Dayoff & Victoria Barghout Comprehensive outpatient
rehabilitationjacilties data analysisDecember 1999 , Supported by CMS

Treatment Diagnosis and SNF Therapy                                                  OEI-09- 99-00563
                                                                                APPENDIX A


 (B)
Neurologic Disorders (continued)
 191               Nontraumatic and other brain damage
                Malignant neoplasm of brain€
  192.          Malignant neoplasm of cerebral meninges€
  198.   198.4 Secondary malignant neoplasm of brain and meninges€
  225. 225.     Benign neoplasm of brain , cranial nerves , and meninges€
  237. 237. 6 Neoplasm of uncertain behavior in the brain and meninges€
  239.         Neoplasm of unspecific behavior in the brain€
  310.2         Postconcussion syndrome€

  045
  997.

  053
                Central nervous system complications (anoxic brain damage)€
                Acute poliomyelitis€

  138
   294
               Herpes zoster€
                Late effects of acute poliomyelitis€

  310
  290-          Organic psychotic conditions€
                Specific nonpsychotic mental disorders due to organic brain€
                damage€
  315           Specific delays€
  316          Psychic factors associated with diseases classified elsewhere€
  317- 319     Mental retardation€
  320- 323     Meningitis , encephalitis , myelitis , encephalomyelitis€
  324.         Intracranial abscess€
  324.         Extradural or subdural abscess€
  325          Phlebitis and thrombophlebitis of Intracranial venous sinuses€
  326          Late effects of Intracranial abscess€
  330- 331     Cerebral degenerations€
  332          Parkinson s disease
  333          Other extra pyramidal disease and abnormal movement disorders€
  334          Spinocerebellar disease€
  337          Disorders of the autonomic nervous system€
  340          Multiple sclerosis€
  341          Other demyelinating diseases of the central nervous system€
  343          Infantile cerebral palsy€
  345          Epilepsy€
  346          Migraine€
  348          Anoxic brain damage and other conditions of the brain€
  349          Other and unspecified disorders of nervous system€
  350          Trigeminal nerve disorders€
  351          Facial nerve disorders€
  352          Disorders of the cranial nerves€
  353          Nerve root and plexus disorders€
  354          Mononeurtis of upper limb and mononeuritis multiplex€
  355          Mononeuritis ofIower limb€
  356          Heredity and idiopathic peripheral neuropathy€
  357          Inflammatory and toxic neuropathy€
  358          Myoneural disorders€
  359          Muscular dystrophies and other myopathies€
  386          Vertginous syndromes and other disorders of vestibular system€
  742          Other congenital anomalies of nervous system€

Treatment Diagnosis and SNF Therapy                                                OEI-09- 99-00563€
                                                                               APPENDIX A€

 Neurologic Disorders (continued)
   780-   788 General and specific body systems
   907.3- 907.Late effect of injures to the nervous system
   950-
   V45.
          957       Injur to nerves and spinal cord
                             Presence of cerebrospinal fluid drainage device


  808
 Hip Fractures

  820              Fractue of pelvis

  821
  905.3
                   Fractue of neck of femur
                   Fractue of other , unspecified part of femur
                   Late effect of fracture of neck of femur


  720
 Back Disorders

  721              Anlosing spondylitis
  722
  723
                   Spondylosis and allied disorders
                   Intervertebral disc disorders

  724
   733.
                   Other disorders of cervical region
                   Other disorders of back
                   Osteoporosis
  733.1
  737              Pathological fractue€


  805              Curatue of spine
                   Fractue of vertebral colun without spinal      cord injur


  846
  839 Other
  847
                        , multiple and il- defined dislocations
                   Sprains and strains of sacroiliac region
                   Sprains and strains of other and unspecified par of back
  905.             Late effect of fractue of spine and


 (A)
Amputation and Deformities

 896        Traumatic amputation

  897              Traumatic amputation of foot (partial)
                   Traumatic amputation ofleg(s) (partial)

 (B)               Acquired deformities
  736.3            Acquired deformities of hip
  736. 736.        Acquired deformities of lower limbs
  738. 738.       Other acquired deformities
  754             Certain congenital musculoskeletal deformities
  755.            Reduction deformities of lower limb
  755.            Other anomalies of lower limb
  905.            Late effect of traumatic amputation
  997.            Late amputation stump complication
  V52.            Fittng and adjustment of artificial leg




Treatment Diagnosis and SNF Therapy                                               OEI-09- 99-00S63
                                                                                    APPENDIX A€

  (A)
 Cardiovascular Disorders


  402               Circulatory disorders

   410
   412
                   Hypertensive heart disease
                   Acute myocardial infarction

   413
   414
                   Old myocardial infarction
                   Angia pectoris
                   Other forms of chronic ischemic disease

   416
   415.

    429
                   Acute cor pulmonale
                   Chronic pulmonar heart disease

    81
   420-

   785
   442.
                   Other forms of heart disease
                   Aneursm of artery of neck
                   Symptoms involving cardiovascular system

 (B)               Pulmonary disorders
  415.             Pulmonary embolism and inarction
  490- 496         Chronic obstrctive pulmonary disease
  500- 508         Pneumoconioses and lung diseases from external agents
  518              Other diseases oflung
  786              Symptoms involving respiratory system and other chest symptoms
  799.             Respiratory failure


 (A)
Rehabiltation
  V57.
                   Therapy for unspecified agents
                   Other physical therapy

  V57.2            Occupational therapy and vocation rehabilitation

  V57.             Speech therapy

  V57.             Other specified rehabilitation procedure

  V57.             Unspecified rehabilitation procedure



 (A)
Musculoskeletal and soft tissues

 714              Arthritis

  715
  716
                  Rheumatoid arthrtis and other inflammatory polyartopathies

                  Osteoarhrosis and allied disorders€

  717
  718
                  Other and unspecified arthropathies
                  Internal derangement oflmee

  719
  274
                  Other derangement of joint
                  Other and unspecified disorder of joints
                  Gout

 (B)              Burns
  941             Bur of face , head and neck
  942             Bum of trnk
  943- 944        Bur of upper limbs , wrsts , and hands
  945             Bur of lower limbs
  946             Burs of multiple specified sites
  948             Burs classified according to extent of body surface involved
  949             Bum , unspecified



Treatment Diagnosis and SNF Therapy                                                    OEI-09- 99-00563
                                                                                      APPENDIX A€

 (C)
Musculoskeletal and soft tissues (continued)€

 451        Soft tissues€

  454
   709
  680-
            Phlebitis and thombophlebitis
                   Varicose veins oflower extremities
                   Diseases of the skin and subcutaeous tissue€
  710- 739 Diseases of the musculoskeletal system and connective tissue

  840- 848 Sprains and strains of joints and adjacent muscles

  880- 887 Open wound of upper limb

  890- 897 Open wound oflower limb

       904
  905
  900-             Injur to blood vessels

           Late effect of musculoskeletal and connective tissue injures

  912- 919 Superficial injuries€
  920- 924 Contusion with intact skin surface

  925- 929         Crushig injur

  930- 934 Effects of foreign body entering though orifice

 959.              Injur to shoulder and upper 

 959.             Injur to Imee ,      leg, ankle and foot

 V53.              Ortopedic devices


Orthopedic
  V43.            Joint replacement
  V54             Other orthopedic aftercare
  802             Fractue of face bones
  805             Fractue of vertebral colum without mention of spinal   cord injur
  807             Fractue of ribs , sternum , lary and trachea
  809             ll- defined fTactures of bones of     trk
  810- 819        Fracture of upper limb
  823             Fracture of tibia and fibula
  824             Fractue of anke
  825             Fracture of one or more tarsal and metatarsal bones
  826             Fractue of one or more phalanges of foot
  827             Other , multiple and il- defined fTactues oflower limb
  828             Multiple fTactues involving both lower limbs , lower with upper
                  limb and lower limbs with ribs and sternum
  829             Fracture of unspecified bones
  830- 839        Dislocation

Other
                  All codes not elsewhere specified




Treatment Diagnosis and SNF Therapy€                                                     OEI-09-99-00563
                                                                                  APPENDIX B


                   Number of Therapy Episodes by Diagnosis
          The following table shows the number of therapy episodes for sampled patients by
          primar treatment diagnosis.


                           Primary Treatment Dial!Dosis        Number of EDisodes
                      Stroke

                      Spinal Cord Injur


                      Neurologic disorder                              255

                      Hip fractue


                      Back disorder€
                      Amputation and defonnity€
                      Cardiovascular disorder€
                      Rehabilitation€
                      Musculoskeletal and soft tissues€
                      Orthopedic disorder€
                       Other
                      Reviewer could not detennine diagnosis

                      TOTAL"o                                          609




        Tbe total number of episodes is greater than the number of sampled patients because patients
may have received therapy during more than one episode

Treatment Diagnosis and SNF Therapy                                                      OEI-09-99-00563
                                                                                    APPENDIX C€

                    Confidence Intervals for Selected Statistics
         The following tables show the point estimates and 95 percent confdence intervals for
         selected statistics , in the order that they appear in the report. These calculations account
         for all levels of clustering and stratification as described in the methodology.

                                                                   Point               95 Percent
                              Statistic
                                                                  Estimate        Confidence Interval
 Of therapy episodes 2I percent in which priar treatment                                1% - 11.%
 diagnosis was stroke

 Of therapy episodes , percent in which primar    treatment
                                                                     1.7%              0% - 3.
 diagnosis was spinal cord injur

 Of therapy episodes ,
                     percent in which primary treatment
                                                                    52.              38. 8% - 65.2%
 diagnosis was neurologic disorder
 Of therapy episodes , percent in which primary treatment           5.1%               0% - 10.2%
 diagnosis was hip fractue

 Oftherapy episodes ,percent in which primary treatment
                                                                    2.4%               0% - 4.
 diagnosis was back disorder
 Of therapy episodes , percent in which primary treatment                                 N/A*
 diagnosis was amputation and deformity
 Of therapy episodes , percent in which primar    treatment
                                                                    2.4%                 1%-
 diagnosis was cardiovascular disorder
 Of therapy episodes , percent in which primar    treatment
                                                                                          N/A*
 diagnosis was rehabilitation
 Of therapy episodes, percent in which primar treatment             11.4%             6.1 %- 16.
 diagnosis was musculoskeletal and soft tissues
 Of therapy episodes , percent in which primary treatment                                0%-
 diagnosis was orthopedic disorder
 Of therapy episodes ,    percent in which primary treatment
 diagnosis was " other                                              13.               8.1 % - 19.


* Could not be calculated because there were no patients with this primary diagnosis in our sample.




         21
              Among episodes in which medical reviewers identified a primary treatment diagnosis.

Treatment Diagnosis and SNF Therapy                                                            OEI-09- 99-00563
                                                                              APPENDIX C



                                                                 Point         95 Percent
                              Statistic
                                                                Estimate   Confidence Interval

  Of January - June 1999 therapy units for stroke patients
                                                                 24.4%          2% - 43.€
  percent that were not medically necessary€
  Of January - June 1999 therapy units for neurologic
  patients , percent that were not medically necessary€
                                                                 13.            1%. 20.€

  Of January - June 1999 therapy units for hip fracture
                                                                 12.           0% - 26.€
  patients , percent that were not medically necessary€
  Of January - June 1999 therapy units for back patients
                                                                               0% - 10.4%€
  percent that were not medically necessary€
  Of January - June 1999 therapy units for cardiovascular
                                                                 19.           0% - 43.4%€
  patients , percent that were not medically necessary€
  Of January - June 1999 therapy units for musculoskeletal
  and soft tissues patients , percent that were not medically                  0%-   17.€
  necessar€
  Of January - June 1999 therapy units for orthopedic
                                                                              1. % - 6.€
  patients , percent that were not medically necessary€
  Of January - June 1999 therapy units for patients in
   other " category, percent that were not medically             25.          6.5% - 45.€
  necessar€




Treatment Diagnosis and SNF Therapy                                                  OEI-09- 99-00563€
                                                                                 APPENDIX C€



                               Statistic                           Point           95 Percent
                                                                  Estimate    Confidence Interval
                        22 percent in
  Of stroke episodes                     which patient reached
                                                                   56.            23. 1% - 90.4%
  treatment goals
  Of neurologic episodes , percent in which patient reached€
                                                                   67.           59.3% - 76.4%€
  treatment goals
  Of hip fractue episodes ,    percent in patient reached
  treatment goals
                                                                   62.4%         44. 9% - 80.

  Of back episodes ,   percent in which patient reached
  treatment goals                                                  64.2%          15. 5% - 100%

  Of cardiovascular episodes , percent in which patient
                                                                   67.           26.4% - 100%
  reached treatment goals

  Of musculoskeletal episodes ,        percent in which patient
                                                                  79.            65. 2% - 93.
  reached treatment goals

  Of ortopedic episodes ,     percent in which patient reached
                                                                  89.5%          74. 0% - 100%
  treatment goals

  Of " other " episodes , percent in which patient reached€
  treatment goals                                                 76.            60. 7% - 91.5%€




         22
          Among episodes in which medical reviewers were able to determine whether or not patients
reached their goals.

Treatment Diagnosis and SNF Therapy€                                                    OEI-09- 99-00563
                                                                                 APPENDIX C



                                                                  Point            95 Percent
                              Statistic
                                                                 Estiate      Confidence Interval
 Of stroke episodes 2J percent in which patient required no
                                                                  85.            60. 0% - 100%
 additional therapy
 Of neurologic episodes, percent in which patient required
                                                                  89.            80. 7% - 98.
 no additional therapy
 Of hip fractue episodes , percent in which patient
                                                                  80.            57.2% - 100%
 required no additional therapy
 Of back episodes ,   percent in which patient required no
                                                                  98.            95. 7% - 100%
 additional therapy
 Of cardiovascular episodes , percent in which patient            94.            83. 8% - 100%
 required no additional therapy
 Of musculoskeletal episodes , percent in which patient           97.            94.4% - 100%
 required no additional therapy
 Of ortopedic episodes ,     percent in which patient required
                                                                  74.            52.2% - 97.
 no additional therapy
 Of " other " episodes , percent in which patient required no
 additional therapy                                               78.1 %         55. 6% - 100%




         23
          Among episodes in which medical reviewers were able to determine whether or not patients
required additional therapy.


Treatment Diagnosis and SNF Therapy                                                     OEI-09- 99-00563
                                                                           \.%




                                                                                             APPENDIX C€



                                                                           Point               95 Percent
                              Statistic
                                                                          Estimate        Confidence Interval
  Of stroke patients , percent who reached the occupational
                                                                            1.%                0% - 11.9%
  cap durng the review period

  Of neurologic patients , percent who reached the
                                                                                               0% - \.%
  occupational cap during the review period
  Of hip fractue patients , percent who reached the
                                                                           1.5%                0% - 4.
  occupational cap durig the review period€

  Of back patients , percent who reached the occupational
                                                                                               0% - 20.
  cap durng the review period

  Of cardiovascular patients , percent who reached the
                                                                                               0% - 3.4%
  occupational cap during the review period
  Of musculoskeletal patients , percent who reached the
                                                                                                  NA*
  occupational cap durng the review period
  Of orthopedic patients , percent who reached the
                                                                                               0%-
  occupational cap durng the review period
  Of " other " patients , percent who reached the occupational
  cap durng the review period                                                                  0% - 2.4%


. Could not be calculated because none of the sampled patients with ths   priar diagnosis reached the cap.




Treatment Diagnosis and SNF Therapy                                                                  OEI-09- 99-00563
                                                                                            APPENDIX C€


                                                                      Point                  95 Percent
                              Statistic                              Estimate           Confidence Interval
 Of stroke patients , percent who reached the combined cap             3.4%                   0% - 8.
 durg the review     period

 Of neurologic patients , percent who reached the                      1.6%                   0% - 3.
 combined cap durng the review period
 Of hip fractue patients, percent who reached the                                             1%-   10.
 combined cap durng the review period
 Of back patients , percent who reached the combined cap                                         NA*
 durng the review period

 Of cardiovascular patients , percent who reached the                                            NA*
 combined cap during the review period
 Of musculoskeletal patients , percent who reached the                 1.%                    0% - 4.
 combined cap durng the review period
 Of orthopedic patients , percent who reached the                                             0% - 2.1%
 combined cap durng the review period
 Of " other " patients , percent who reached the combined
                                                                       5.4%                  0% - 12.
 cap during the review period


. Could not be calculated because none of the sampled patients with ths priary   diagnosis reached the cap.




Treatment Diagnosis and SNF Therapy                                                                  OEI-09-99-00563€
                                                        APPENDIX D


                                      Agency Comments




Treatment Diagnosis and SNF Therapy                        OEI-09- 99-00563
       ,.:"-
                                                                        ..-           '!.'




                                                                                                                       APPENDIX D€




                                                                                                                 rirolhC.'\reFII\MCngi\mlnlLraliDl
                DEI'Ak'tMWiD." 1fALTH&HUMANlitHVICf.                                       ..r-'
                                                                                           ..I..                             OOpIIYJI/TIr;:tIOl
                                                                                                                                 lInolm   C. 20201
                                                                             Zuul JU!l20 AI; II:
                    DATE:
                                       JUN r 3 2001                          OFFICE OF I, \S?ECTOR
                                                                                       GENERI\L
                    TO:	             Michael F. Mangano
                                     ACtingD1SpectorGc er
                                     Offce ofInspcctor

                    FROM:            Michael McMullall
                                     Actng Dcputy Admintra or
                                    Health Car Financig Administrtion
                 SUBJECT:           Offce of Inspcctor Gc'Teral (OIG) Draft Report"
                                                                                    Physical. Occupational.
                                    and Speech Therapy /or Medicare Nursing I-lome Patients: Medical
                                    Necessity and Cost Under the $1, 500           Therapy Caps,        (OEI- 09- 99- 00560);
                                    Medical Record and Documentarion and Biling.
                                                                                                     (OEI- 09-99- 00562); and
                                    MedicaJ Neoessicy cvld QUi/lly         of Care    Based on Treatmnt Diagnosis
                                    (OEI- 09- 99- 00563)


                Than you for the opportunity to revew the above-referenced drft report.                         The Health
                Care Financing Administration            s (HCfiA) main focus i3 to ensue health car security for
                aU of OUT bencfici::ries. These lhrec companion reports have provided us with

                infonnation that wil anow us to protect amI improv bcnetlciary heath and satisfaction
                with outpatient rellabilitation seric:c:s.

                Following a thorough rcview , 010 found tht less than 2 pertmt   of Medicare
                beneficiaries reached cithcr ofthc $1, 500 therpy caps and tht &6 percent of all
                Medical' e Pan B therapy was medically necessar. The om also foun that dle
                provider ' medical documentation and biling technques were not up to HCFA'
                stanrds and  that efforts should bo m::de to address these issues. We concur with orG
                timHngs and will contim1C to work with the fiscal intermediaries (Frs), nuring home
                staff, and national therapy associations to make sure our beneficiares receive the qualiy
                cure they dt:crvc.


               The OIG bas issued the following recommendations:

                    IG Recom mcndation
               HCFA should encourage I"ls to continue educating nursing homes all Medicnre
                                                                                                                      rt B
               biling.
                 CFA Respon,e
               We  COil cut'. Tht: HCFA will contiue to encourge PIs to educate nursing homes on
               Pnr B billng. The Therapy Rcview Progr (TP) mcntionod in ths report is tasked
               with providing educational materials and activities. We believe that providers
                                                                                                                 of serices




Treatment Diagnosis and SNF Therapy                                                                                               OEI-09- 99-00563
                                                                                                 APPENDIX D€




                  Page 2 - Michael F. Mangano

                  a.q well as administrators of nursing homes should be provided with infOlmaton tht
                  facililales appropriate claims biUing.

                  orG Recommendaton€
                  HCFA should instrt Fls to conduct focued mcdica review in order to idcntify and

                  col1ect Medicare Par B therapy overpayments.

                 HCFA ReSDonse
                 We concur. The HCFA highly rceommcnds focu.sed medcal review. The           l's were
                  instrcted 10 conduct focused medical review     whenever their analysis sugges egregious
                  avenlliU:ztion of services. Furterore, progressivo con-ccnan action ensus both
                  education and monitoring. The TRP wil provide medica revew of a stastically
                 significant number of skilcd nursing facility (SNF Par B serce       clai for the   years
                 1998, 1999, and 2000.

                 QKi Rec ornmendation
                 lICF A should consider options when developing a new reimbursement system for
                 Medicare Part B therapy Sleh     as: (I) rcimurement based on an episode of therapy; and
                 (2) prior authoriation 1'01' therapy that exceeds a separte monetary ca for each tye of
                 therapy.

                 HCF A Rcsnonse€
                 Wc concur. As requircd by stalute , HCFA will be cnnsiderig alternatve payment

                 systems for therapy serices. Infonnation collected by TRP !rom data anayscs , medica
                 review , and a varety ofinfonnation- gatherg actvities wi be analyz by HCFA in the
                 rerts that Congress requested U1 the !3l1anced Budget Reconciliation Act of 1999.

                 Drg Recommendation
                 HCFA should continue working collaboratively with the nationa therpy associatons to
                 CIl'UlrC that they provide accurate and comprehensive informtion to their members on
                 proper documentation ofthcrpy in medical records.

                 HCrA Resno l).€
                 We concur. The HCFA plans to contiue working collaborativelywith thc national

                 therapy associations to encoLlrage provision of accurte and comprehenive information

                 to thcir members on documentation of therapy serces. The TRP has developed working€
                 relationships with the relevant associations rcsulting;n a valuable exchange of€
                 informatiolL€

                 QIQJ         mmcnd3linn
                 HCF A should instrct Fls to provide regnlar worksheps to nuring homes am their staff
                 on Medicare requirements for reurd        documentaon nnd retention with an emphasis on
                 the proper docUlncnt1tion   of physicIan     orders in patient records.




Treatment Diagnosis and SNF Therapy                                                                          OEI-09-99-00563
                                                                                               APPENDIX D




                 Page 3 - Michael F. Mangao

                 HCF A ResDOnsc
                 We concur. Nuring home sIaff wil bc encourged to lea an use apprprate
                 dOC1mcnt&tion an retentien , including documentation of physician   s orer.
                 Attachmcnt




Treatment Diagnosis and SNF Therapy                                                               OEI-09-99-00563
